         OIG
         OFFICE OF INSPECTOR GENERAL


                                   Catalyst for Improving the Environment


Audit Report



         EPA Needs to More Actively
         Promote State Self Assessment
         of Environmental Programs
         Report No. 2003-P-00004


         December 27, 2002
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460


                                                                                       OFFICE OF
                                                                                  INSPECTOR GENERAL


                                             December 27, 2002

MEMORANDUM

SUBJECT:       Report Number: 2003-P-00004
               EPA Needs to More Actively Promote State Self Assessment
               of Environmental Programs


FROM:          Michael A. Rickey, Director
               Assistance Agreement Audits

TO:            Edward Krenik
               Associate Administrator for Congressional and Intergovernmental Relations


We completed our preliminary research of the effectiveness of state self assessments. The
objective of the assignment was to answer the following questions:

 C Are states using self assessments to develop their performance partnership agreement and
   performance partnership grant priorities and activities?
 C What have been the benefits and obstacles to conducting and using self assessments?
 C Have states that have based their performance partnership agreement and performance
   partnership grant priorities and activities on a self assessment achieved environmental
   results superior to those states that have not conducted such an assessment?

The purpose of preliminary research is to gather information to define the scope and
methodology for an audit. During preliminary research, we determined, as discussed below, that
the U.S. Environmental Protection Agency (EPA) has done little to develop and promote greater
reliance on state self assessment. We met with the Deputy Associate Administrator for
Intergovernmental Relations and discussed the results of our preliminary research. Based on our
work to date and the meeting, we decided to report on what we found and not to perform
additional audit work. This report addresses the first two objectives. Based on our conclusions
on the first two objective questions, we did not believe that there was sufficient information to
answer the third objective question. Details on the scope and methodology are in Appendix A.
Background

In 1995, EPA and the states established the National Environmental Performance Partnership
System (NEPPS) to strengthen the management, efficiency, and effectiveness of the nation’s
state and Federal environmental programs by improving the partnership between EPA and the
states. Self assessment is one of the principal components of NEPPS. Self assessment was
introduced as a new approach to program assessment, to share with the public information about
environmental goals, priorities, and prior year achievements. In the self assessment, states would
provide information identifying:

 C What the state sees as the key environmental problems, opportunities, and priorities facing
    the state;
 C The recent performance of the state’s programs based on available measures of program
    success;
 C An analysis of current program weaknesses from the state’s perspective;
 C An assessment of basic fiscal accountability, along with an identification of any areas
    needing capacity building;
 C The state’s proposed action plan for maintaining and improving its program performance,
    and identifying specific action and approaches the state plans to take in the coming year; and
 C How well the state carried out the plan agreed to in the environmental performance
    agreement.

While states are not required to participate in the NEPPS process, 40 Code of Federal
Regulations Part 35.115 requires regions and states to have a joint evaluation process for all
continuing environmental grants awarded after January 2001. The joint evaluation process
includes a discussion of existing and potential problem areas and suggestions for improvement,
including, where feasible, schedules for making improvements. The joint evaluation process
could provide EPA and the state with information similar to the self assessment that could be
used in setting priorities for each state.1

EPA and States Not Effectively Using Self Assessments

EPA and states had not widely adopted the self assessment concept. Many states were not
performing self assessments, their content varied, and they had little impact on environmental
performance agreements. This occurred because EPA had not taken a leadership role to define to
staff and states its expectations for self assessments. As a result, Federal resources may not be
directed at the state level to where they would have the most vital environmental impact.

Most states did not conduct self assessments. According to region officials, only 23 states
performed self assessments. Also, self assessments did not always address the elements
identified in the NEPPS policy. We reviewed self assessments for two states in Region 1 and
compared the contents of the documents to the elements prescribed in the NEPPS policy. Each


       1
        As part of this audit, we did not evaluate whether regions and states were performing joint evaluations.

                                                        2
state’s self assessment varied from NEPPS policy. In one state, the self assessment addressed
five of the six elements. The other state’s self assessment fully addressed two elements and
partially addressed two elements. The checkmarks in the table denote the elements included in
each state’s self assessment.


                  Elements of a Self Assessment                      State 1          State 2

 Key problems and priorities                                            T             Limited

 Recent performance                                                     T               T
 Program weaknesses                                                     T
 Assessment of fiscal accountability and capacity building

 Plan accomplishment                                                    T               T
 Proposed action plan for improving areas                               T             Limited


Self assessments did not include all of a state’s programs. According to information provided by
the regions, 9 of 23 states did not include all programs in their self assessment. According to
officials in one state, all programs were not included because of the extensive coordination and
resources required to perform a comprehensive assessment.

According to state officials, the self assessment had little impact on the negotiation of the
environmental performance agreement and the allocation of Federal funds. State and regional
officials both stated that the negotiation process was dominated by EPA priorities. The NEPPS
policy states:

       The self-assessment, in concert with EPA’s perspective on environmental conditions and
       program performance, would form the basis for negotiating the Environmental
       Performance Agreement.

Regional staff stated that the self assessment was of limited value to them. The self assessment
was used as a reference for state accomplishments and outputs, but was not very timely for
negotiation of the performance agreement. Further, some regional staff stated that the self
assessment will be of little value until EPA reaches a consensus on (a) what will be in the self
assessment, (b) how it should be conducted, and (c) how the results will be used.

Since the NEPPS policy was issued in 1995, EPA had done little to develop and promote greater
reliance on the self assessment. EPA had not issued any additional guidance or training on self
assessments. As a result, few regions and states were performing and effectively using self
assessments. EPA had not taken a leadership role in defining or re-defining the purpose of the
self assessment, what should be included, and how it should be used.

The NEPPS policy envisioned the self assessment as one of the tools for directing scarce public
resources toward improving environmental results and allowing states greater flexibility to


                                                    3
achieve those results. By identifying and reporting on state priorities, performance, areas of
weakness, and fiscal accountability, the self assessment could provide valuable information on
where environmental resources are most needed in a state. Without a comprehensive self
assessment, Federal resources may not be directed to the state level where they will have the
most vital environmental impact.

Recommendations

We recommend that the Associate Administrator for Congressional and Intergovernmental
Relations:

1.     Clarify the purpose of self assessments and how they are to be used by EPA and states.
       EPA needs to work with states to develop guidance and training on self assessments.
       Questions to consider include:
       •       What information should be included in the self assessment?
       •       When should the self assessment be completed?
       •       How should EPA combine or link self assessments with other reporting
               requirements, such as the joint evaluation process required by 40 Code of Federal
               Regulations Part 35.115?
       •       How should EPA use the results of the self assessment to prioritize and allocate
               Federal funds?

2.     Work with other EPA offices and states to gain their acceptance and involvement with the
       self assessment concept.

Agency Response

In the Associate Administrator’s November 20, 2002, response to our draft report (Appendix B),
he generally agreed with all of our findings and recommendations. The Associate Administrator
indicated that states that conducted self assessments considered the exercise worthwhile, but
expended considerable resources without EPA feedback. The Associate Administrator agreed
that a joint evaluation process similar to that required under 40 Code of Federal Regulations Part
35.115 would improve joint planning and priority setting, and would provide information similar
to the self assessment. EPA will continue discussions about advancing performance partnership
agreements with states. Based on the discussions, the self assessment process may be overtaken
by improved priority setting and joint evaluation processes.

Office of Inspector General (OIG) Comments

We agree with the Associate Administrator’s response and that a joint evaluation process could
serve the same purpose as a self assessment process. At the exit conference with the Office of
Congressional and Intergovernmental Relations, we indicated that regardless of whether the
Agency chooses to use a joint evaluation or a self assessment, the Agency needs to clarify the


                                                4
process. Further, the Office of Congressional and Intergovernmental Relations should work with
EPA offices and states to gain acceptance of the process, as stated in the recommendations.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days of the date of this report. You should include a corrective actions
plan for agreed upon actions, including milestone dates. We have no objections to the further
release of this report to the public.

This audit report contains findings that describe the problems the OIG has identified and
corrective actions the OIG recommends. This audit report represents the opinion of the OIG and
the findings contained in this report do not necessarily represent the final EPA position. Final
determinations on matters in this audit report will be made by EPA managers in accordance with
established audit resolution procedures.

If you or your staff have any questions about this report, please contact me at (312) 886-3037, or
Ricardo Martinez at (212) 637-3045.




                                                 5
6
                                                                                   Appendix A

                           Scope and Methodology
In order to accomplish our objectives, we collected information from EPA’s Office of
Congressional and Intergovernmental Relations, and from regions and states. Specifically:

C   We sent questionnaires to staff in EPA Region 1 and its six states regarding self assessment
    use, benefits, and obstacles. For other than two states, we did not verify the information
    provided in the questionnaires.

C   We interviewed NEPPS staff from the Office of Congressional and Intergovernmental
    Relations, Regions 1 and 2, and the States of Massachusetts and New Jersey.

C   We obtained information on the number of states conducting self assessments through a
    questionnaire to the NEPPS coordinators for all 10 EPA regions, and reviewed their
    responses. We did not verify the information the regions provided.

C   We compared the content of the self assessments for Massachusetts and New Hampshire
    with the NEPPS policy.

We conducted our fieldwork from August through October 2002. We performed our audit in
accordance with Government Auditing Standards, issued by the Comptroller General of the
United States. We limited our preliminary research to objective questions 1 and 2; and state
participation, benefits, and obstacles in conducting self assessments. Based on our preliminary
results and a meeting with the Office of Congressional and Intergovernmental Relations, we
decided to report on what we found and not to perform a full audit.




                                                7
8
                                                                                                                       Appendix B
                                                                                                                       Page 1 of 7

                         UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                      WASHINGTON, DC 20460

                                                  November 20, 2002
                                                                                              OFFICE OF CONGRESSIONAL AND
                                                                                              INTERGOVERNMENTAL RELATIONS



MEMORANDUM

SUBJECT:               Draft Report – EPA Needs to More Actively Promote State Self-Assessment
                        of Environmental Programs
                       Assignment Number 2002-000877
FROM:                   Edward D. Krenik
                       Associate Administrator for Congressional and Intergovernmental Relations
TO:                    Michael A. Rickey, Director
                       Assistance Agreement Audits

         Thank you for the opportunity to comment on the report about your preliminary research
on the effectiveness of state self-assessments. Thank you also for your earlier meeting with Dona
DeLeon, Deputy Associate Administrator for Intergovernmental Relations, to discuss the results
of your research.
         We appreciate the time you devoted to this important aspect of State/Federal relations and
generally agree with your findings. Since January 2002, the Office of Congressional and
Intergovernmental Relations (OCIR) has coordinated discussions between EPA senior managers
and state commissioners relative to how the performance partnership system is working. This
general evaluation and recommended next steps are in the attached draft, “The State-EPA
Performance Partnership for Cleaner Air, Purer Water and Better Protected Land.” You will note
that on page 3 of the document the States conveyed that those that prepared self-assessments
invested considerable resources with no feedback from EPA; they believed the exercise was
worthwhile.
          The paper suggests that identifying and reporting on state priorities, performance, areas of
weakness, and fiscal accountability could be accomplished through a joint assessment or as part
of a State-Regional Office joint strategic planning and priority-setting process. We agree with
your point that a joint evaluation process similar to that required under 40 Code of Federal
Regulations Part 35.115 would improve joint planning and priority-setting. We appreciate your
bringing this important requirement to our attention and we plan to formally include joint
evaluation in our work with the States. This joint evaluation process could include discussions
of existing and potential problem areas, roles and responsibilities of each level of government in


                                        Internet Address (URL) • http://www.epa.gov
            Recycled/Recyclable • Printed with Vegetable Oil Based Inks on Recycled Paper (Minimum 25% Postconsumer)




                                                              9
                                                                                              Appendix B
                                                                                              Page 2 of 7


                                                  2

solving the problem and resources needed. We see this joint evaluation process providing EPA
and the State with information similar to the State self-assessment and it could be used in setting
priorities for each State.

         EPA will continue discussions about advancing PPAs with the ECOS Strategic Planning
Committee. It is unclear at this time what role, if any, a State self-assessment will play. It very
well may be overtaken by an improved priority-setting process and a much needed joint-
evaluation process, as you point out in your review.

        Should you or your staff have any questions about these comments, please contact the
Deputy Associate Administrator for Intergovernmental Relations, Dona DeLeon, at (202) 564-
7178 or Steve Wilson at (202) 564-3646.



Attachment




                                                 10
                                                                                             Appendix B
                                                                                             Page 3 of 7


                                                                               DRAFT
              The State-EPA Performance Partnership for
          Cleaner Air, Purer Water and Better Protected Land
                                      For Discussion
                                           at the
                                  ECOS Partnership Meeting
                                      April 23, 2002
                                     4:15 to 6:15 PM
                                           Co-chaired
                                               by
    ECOS Secretary-Treasurer Karen Studders, Commissioner, Minnesota Pollution
                                 Control Agency
                                       &
      Dona DeLeon, EPA Deputy Associate Administrator for Intergovernmental
                                    Relations

Successes: What Have We Accomplished ?
•         States and EPA agree that the May 17, 1995 Performance Partnership agreement put forth
          a sound set of principles to maintain a core level of environmental protection for all
          citizens. The principles guides a flexible process that adapts environmental goals to local
          conditions in a way that builds trust between states and EPA and serves both of us as we
          work together.

•         The National Environmental Performance Partnership System (NEPPS) greatly improved
          trust and communication between EPA and State Environmental Agencies by
          encouraging more frequent discussions between Regional Administrators and State
          Environmental Commissioners and beginning to break down organizational and media-
          program barriers at both the EPA regional and state offices.

•         One result of these improved communications was improved priority setting and planning
          among state environmental agencies and EPA Regional Offices. This has been
          demonstrated through: 1) improved internal priority planning by some state agencies; 2)
          increased joint EPA Regional and state priority setting and planning efforts (i.e., EPA
          Region V State’s Environmental Performance Partnership Agreements); and 3)

                                                  1




                                                 11
                                                                                            Appendix B
                                                                                            Page 4 of 7


                                                                                DRAFT
      development of self-assessments and strategic plans by some state agencies that improved
      internal or joint priority setting and planning. In some instances these efforts led to
      funding shifts and work sharing.

•     The improvement in priority setting and planning in turn better positioned EPA and the
      states to focus national environmental protection efforts on results, creating a strong
      management partnership. It created demand for better integration of environmental data
      that yielded EPA’s grant program to states, known as the “One Stop” grant program, the
      subsequent state/EPA Information Management Working Group, and EPA’s structural
      reorganization creating the Office of Environmental Information. The states and EPA
      are now building an internet based Information Exchange Network, which will increase
      the speed of sharing data while driving down cost and improving efficiency, and
      accuracy. Also, the EPA/State Regulatory Innovation Agreement developed in part from
      these efforts, and for the first time, states and EPA agreed on performance measures to
      track progress towards results.


Challenges: Impediments to Advancing Performance Partnerships
•     EPA’s multiple priority setting and planning processes including performance
      partnerships, development of national program guidance, and budgeting and
      accountability requirements of GPRA developed too independently of each other and at
      different times, and are not aligned in a way that fosters joint planning and priority setting
      across media program lines.

•     Staff in both EPA and state environmental agencies have limited experience with a non-
      traditional, collaborative approach to environmental problem solving. Also, formal
      training for staff on how to manage programs to better focus on outcomes never occurred
      and tools are limited. A strong media program perspective and loyalties still dominate
      many aspects of state/EPA relationships and there are few incentives for state and federal
      staff to take on new ways of doing business or to face new risks.

•     A Performance Partnership Agreement (PPA) is “in addition to” and many times conflicts
      with delegation agreements, national program guidance or other documents dictating
      some aspect of state -federal management of environmental programs.

•     Transaction costs for developing performance partnership agreements are believed to be
      too high because of the perceived lack of flexibility in the process (# of hours spent
      planning exceeds number of hours doing environmental work). The expected benefits of
      a reduction of oversight and reporting were not realized.

                                               2




                                              12
                                                                                         Appendix B
                                                                                         Page 5 of 7


                                                                           DRAFT
•     Some states invested considerable resources in developing self-assessments about which
      they received no EPA feedback.


Vision: What Should Performance Partnerships Be?
•     A Performance Partnership embraces a data-driven system of joint state/EPA planning
      and priority setting that articulates: 1) federal and state government roles and
      responsibilities; 2) environmental goals; 3) performance measures and time frames; and,
      4) resource needs. Ultimately, it provides a framework that can guide delivery of
      environmental services and environmental problem solving at all levels of government.

•     This data-driven joint state-EPA priority setting and planning process would yield a set of
      agreed upon national, regional, and state and local priorities that build on the core
      responsibilities of each. It would provide the information foundation for individual
      states/Environmental Council Of the States (ECOS) to be further involved in improving
      EPA’s budgeting and accounting systems, strategic planning, and development of
      environmental indicators and information management systems.

•     It would be an evolving, learning partnership between EPA and the states that rewards
      innovation and innovators, encourages experimentation, and documents reduction in
      transaction costs for both sides.

•     Joint EPA/state assessments of priorities and implementation strategies and annual or
      biennial performance evaluations would take place to measure progress, as well as the
      joint development of agreed upon performance measures.

•     Accountability, oversight and reporting would be based on a data-sharing relationship
      between EPA and the states. From this we would jointly determine performance
      measures, measures performance against them, provides feedback and continuously
      improve them. Technological advancements that make information accessible to EPA,
      states and the public would be readily adopted.

•     [For states with PPAs, jointly established priorities and plans for results would be
      articulated in a single operating document -- the performance partnership agreement.
      This PPA would reflect the state’s strategic plan. It would be a multi-media, integrated,
      holistic agreement between the state and EPA that addresses environmental performance
      expectations and needs. Criteria for what all such agreements should contain would be
      developed by these states and EPA. In addition, EPA and states would identify incentives

                                              3




                                             13
                                                                                              Appendix B
                                                                                              Page 6 of 7


                                                                                 DRAFT
        and rewards for PPA states to continue to improve this process. Further Discussion
        Necessary.]


A Performance Partnership Advancement Agenda: Overcoming the Challenges
To bridge some of the gaps between where performance partnerships are now and our vision for
the future, there are several areas that EPA and the states can begin to address.

        Joint Priority Setting and Planning
•       The state/EPA performance partnership will be based on joint priority setting and
        planning. Beginning the summer of 2002, in either a national forum or state-specific
        regional processes, EPA and states will meet to identify a set of national, state and
        regional priorities. These priorities will consider early information from our collective
        environmental indicators and performance work. They will be incorporated into EPA’s
        national strategic planning process, and annual planning, budgeting and accountability
        processes for FY 2004. States are encouraged to participate in these annual EPA
        processes to ensure continuous improvement.

•       These priorities will continue to inform and refine the development of national and state
        indicators, and the identification of investment needs for necessary data and monitoring
        needs.

•       State priorities also will inform and influence the development of the FY 2004 Annual
        Performance Goals, targets, and national program guidance, which in turn will encourage
        flexible and innovative approaches to regional and state problem solving.


        Joint Capacity Building Based on Performance Partnership Principles
•       EPA and the states jointly will review specific environmental program functions as
        identified by EPA national program managers (i.e., NPDES, RCRA Permitting) in order
        to improve efficiency and environmental impact of work. This would include a
        renegotiation of roles and responsibilities for that specific function, as well as a review of
        potential resource shifts.

•       Based on EPA’s Innovation Action Agenda, EPA and states will actively search for
        opportunities that display flexible and innovative solutions that produce measurable
        environmental results. As regulatory or statutory barriers are identified and agreed upon,
        they should be presented by the states and EPA to the EPA Administrator for further
        action within an agreed upon time frame.

                                                  4




                                                 14
                                                                                        Appendix B
                                                                                        Page 7 of 7


                                                                           DRAFT
•   To improve the states’ and EPA’s ability to solve environmental problems, we should
    provide incentives for continuous improvement and advancement of state and federal
    programs to achieve environmental results. Among the incentives that could be used are:
    "          Developing strategies for collection of necessary data and monitoring information
               for development of environmental indicators. States and EPA jointly should
               identify barriers to achieving results due to lack of data, including the need for
               additional funding.
    "          Accelerate development of system for shared data that would drive environmental
               results.
    "          Market the successes and benefits and establish acknowledgment and rewards for
               long-term civil servants who support the cultural change.

"   EPA and the states should provide opportunities and incentives for staff to engage in
    continuous improvement. Among the incentives could be:
              –       Joint state-EPA evaluation of employees/managers;
              –       State and EPA senior leadership celebrating and sharing successes;
              –       Successful state and federal employees mentoring others;
              –       Regular state and EPA assessment of performance partnership
                implementation;
              –       More joint training opportunities for staff and senior managers;
              –       Incorporating performance partnership principles into everyone’s expected
                job performance to include personal goal setting, performance evaluation
                and incentives, both financial and other;
              –       annual personnel performance reviews.

•   A joint annual evaluation of individual performance partnership agreements should be
    institutionalized to ensure accountability and proper management. These evaluations
    should include discussions of program performance, delegations and oversight
    responsibilities as well as other kinds of appropriate process issues. EPA and state staff
    should be accountable in performance evaluations for implementing performance
    partnership agreements.

•   EPA and the states with PPAs may chose to perform joint performance assessments
    annually or biennially in lieu of the self-assessments described in the May 17th
    Performance Partnership Agreement.



                                            5




                                            15
16
                                                                             Appendix C

                                  Distribution

Headquarters Office

     Associate Administrator for Congressional and Intergovernmental Relations (1301A)
     Deputy Associate Administrator for Intergovernmental Relations (1301A)
     Comptroller (2731A)
     Director, Grants Administration Division (3903R)
     Director, Office of Regional Operations (1108A)
     Agency Followup Official (2710A)
     Agency Audit Followup Coordinator (2724A)
     Audit Followup Coordinator, Office of the Administrator (1104)

Regional Office

     Regional Administrators

Office of Inspector General

     Inspector General




                                           17
